                     AUDIT REPORT



                    Audit of NRC’s Oversight of Agreement
                           States’ Licensing Actions

                         OIG-06-A-12     April 14, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                       April 14, 2006




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum/RA/
                          Assistant Inspector General for Audits


SUBJECT:                  AUDIT OF NRC’S OVERSIGHT OF AGREEMENT
                          STATES’ LICENSING ACTIONS (OIG-06-A-12)


This report presents the results of the subject audit. Agency comments provided
at the exit conference on December 6, 2005, and the agency’s written response,
dated February 13, 2006, have been incorporated, as appropriate, into this
report. Appendix C contains the agency’s written comments and Appendix D
contains OIG’s response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow-up as stated in Management Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the audit. If you have any questions or comments about our
report, please feel free to contact me on 301-415-5915 or Anthony Lipuma on
301-415-5910.
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Luis A. Reyes, Executive Director for Operations
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                 Audit of NRC’s Oversight of Agreement States’ Licensing Actions



EXECUTIVE SUMMARY

BACKGROUND

             In accordance with Section 274 of the Atomic Energy Act of 1954,
             as amended (AEA), the Nuclear Regulatory Commission (NRC)
             relinquishes its authority to regulate certain byproduct material to
             34 States. These Agreement States are responsible for
             administering approximately 17,300 materials licenses.

             The AEA also mandates that NRC periodically review agreements
             and actions taken by Agreement States to ensure compliance with
             the provisions of Section 274 of the Act. NRC established the
             Integrated Materials Performance Evaluation Program (IMPEP) as
             the mechanism for overseeing Agreement State programs.

             To examine a State’s program, the IMPEP review teams evaluate
             and assign ratings to common and non-common performance
             indicators. Among the many performance indicators considered,
             only one specifically relates to evaluating the technical quality of an
             Agreement States' licensing actions. That is, Common
             Performance Indicator 4, Technical Quality of Licensing Actions.

             NRC’s IMPEP guidance instructs the review team to evaluate the
             technical quality of licensing programs based on an in-depth, onsite
             review of a representative cross-section sample of 10 to 25
             licensing actions. Based on the review of the sample, the IMPEP
             team assigns a rating for Indicator 4.

PURPOSE

             The purpose of this audit was to evaluate NRC’s oversight of
             Agreement State licensing actions.

RESULTS IN BRIEF

             NRC uses a judgmental sampling method to rate the overall
             technical quality of an Agreement State’s licensing actions.
             However, while NRC should only apply the conclusions drawn from
             the sample to those license actions selected, NRC projects the
             results to the overall licensing program. To project sample results
             to the entire program and to measure the confidence in those
             results requires statistical sampling. Because NRC uses
             judgmental sampling, NRC cannot measure the level of confidence
             in conclusions about the adequacy of an Agreement State licensing
             actions to protect public health and safety. Furthermore, without


                                           i
                               Audit of NRC’s Oversight of Agreement States’ Licensing Actions



           confidence in ratings about a State’s licensing program, NRC
           cannot attest to the confidence level in overall program ratings on
           the adequacy of an Agreement State program.

RECOMMENDATIONS

           This report makes recommendations to the Executive Director for
           Operations to: (1) Seek and apply guidance from NRC’s
           statistician, and (2) document the rationale and basis for the
           sampling methodology used.

OIG ANALYSIS OF AGENCY COMMENTS

           OIG shared a draft of the report with NRC management on
           January 31, 2006. The draft report included a recommendation to
           apply statistical random sampling techniques in conducting reviews
           of the Common Performance Indicator 4, Technical Quality of
           Licensing Actions. The February 13, 2006, response from the
           Deputy Executive Director for Materials, Research, State and
           Compliance Programs stated that, “. . . although we understand the
           OIG’s conclusions on the NRC oversight of Agreement States’
           licensing actions as described in the OIG report, the staff continues
           to disagree with the use of random sampling for this application.”

           OIG maintains that applying sound statistical methods in selecting
           licensing actions for evaluating Common Performance Indicator 4
           will add value to the existing program. However, OIG recognizes
           that other sampling approaches are available. Therefore, OIG
           revised the initial report recommendations to allow for flexibility in
           establishing and documenting the basis for selecting licensing
           actions to review.




                                        ii
                    Audit of NRC’s Oversight of Agreement States’ Licensing Actions



ABBREVIATIONS AND ACRONYMS


       AEA     Atomic Energy Act of 1954, as amended
       CFR     Code of Federal Regulations
       IMPEP   Integrated Materials Performance Evaluation Program
       MD      Management Directive
       NRC     Nuclear Regulatory Commission
       NSTS    National Source Tracking System
       OIG     Office of the Inspector General
       RSAO    Regional State Agreements Officer
       STP     Office of State and Tribal Programs




                             iii
       Audit of NRC’s Oversight of Agreement States’ Licensing Actions




[Page intentionally left blank.]




                iv
                                         Audit of NRC’s Oversight of Agreement States’ Licensing Actions



TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ................................................... iii

    I.     BACKGROUND .............................................................................1

    II.    PURPOSE......................................................................................2

    III.   FINDING ........................................................................................4

    IV.    RECOMMENDATIONS ..................................................................8

    V.     AGENCY COMMENTS ..................................................................9

    APPENDICES

    A.     SCOPE AND METHODOLOGY...................................................11

    B.     POLICY STATEMENT ON ADEQUACY AND COMPATIBILITY
           OF AGREEMENT STATE PROGRAMS ......................................13

    C.     AGENCY FORMAL COMMENTS ................................................15

    D.     DETAILED OIG ANALYSIS OF COMMENTS..............................19




                                                    v
   Audit of NRC’s Oversight of Agreement States’ Licensing Actions




[Page intentionally left blank.]




            vi
                              Audit of NRC’s Oversight of Agreement States’ Licensing Actions



I. BACKGROUND

       The Atomic Energy Act of 1954, as amended (AEA), allows NRC to
       delegate its authority to regulate certain radioactive material to a
       State. The mechanism for transferring NRC’s authority to a State is
       an agreement signed by the Governor of the State and NRC’s
       Chairman. The AEA also mandates that NRC periodically review
       agreements and actions taken by Agreement States to ensure
       compliance with the provisions of Section 274 of the Act.

       NRC’s Office of State and Tribal Programs (STP) is responsible for
       overseeing Agreement State programs. This responsibility includes
       coordinating the agency’s periodic reviews of Agreement State
       programs to determine their adequacy and compatibility (see
       Attachment A for NRC’s full Policy Statement on Adequacy and
       Compatibility). NRC Figure 1 depicts the distribution of Agreement
       States and non-Agreement States.

                                   Figure 1
                      Agreement and Non-Agreement States




       Note: Agreement States are shown in orange; non-Agreement States are shown
       in yellow. Pennsylvania and Virginia are currently non-Agreement States in the
       process of having their regulatory programs certified for Agreement State status.
       Source: NRC website [http://www.hsrd.ornl.gov/nrc/home.html] as of April 2006.

       NRC’s policy is to evaluate its own regional materials programs and
       Agreement State programs in an integrated manner, using common
       and non-common performance indicators. Evaluations are
       intended to ensure that the public health and safety is being




                                       1
                            Audit of NRC’s Oversight of Agreement States’ Licensing Actions



         adequately protected and that Agreement State programs are
         compatible with NRC’s programs. The agency conducts these
         reviews in accordance with established policies and procedures for
         the Integrated Materials Performance Evaluation Program (IMPEP).

         To examine a State’s program, the IMPEP review teams evaluate
         and assign ratings to the performance indicators. The team then
         makes recommendations to an NRC Management Review Board
         (the Board) on the overall adequacy of the State’s program. The
         Board makes an overall programmatic assessment on the
         adequacy and compatibility of each Agreement State program. The
         assessment is based on, among other things, the IMPEP review
         team’s recommendations, including ratings for common and non-
         common performance indicators.

         Only one performance indicator, among the many considered
         during an IMPEP review, specifically relates to evaluating the
         technical quality of Agreement States' licensing actions. That
         indicator is, Common Performance Indicator 4, Technical Quality of
         Licensing Actions. According to IMPEP guidance for Indicator 4,
         IMPEP teams should evaluate the technical quality of licensing
         programs based on an in-depth, onsite review of a representative
         cross-section of licensing actions. The IMPEP team then assigns a
         rating for the indicator of—

               ¾        satisfactory,
               ¾        satisfactory but needs improvement, or
               ¾        unsatisfactory.

II. PURPOSE

         As part of the Office of the Inspector General’s (OIG) Audit of the
         Development of the National Source Tracking System (NSTS)
         (OIG-06-A-10), OIG examined licensing aspects of NRC’s
         Integrated Materials Performance Evaluation Program. IMPEP is
         the agency’s mechanism for overseeing Agreement State
         programs.

         The overall purpose of the Audit of the Development of the NSTS
         was to determine whether NRC can provide reasonable assurance
         that licensees use byproduct and sealed source materials safely
         and account for and control the materials. In accordance with
         Section 274 of the Atomic Energy Act, as amended, NRC
         relinquishes its authority to regulate certain byproduct material to
         34 States. Agreement States are responsible for administering
         approximately 17,300 materials licenses. Because Agreement
         States are an integral part of oversight of byproduct and sealed

                                     2
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



source materials, this report focuses on NRC’s oversight of
Agreement State licensing actions.

See Appendix A for more details on the scope and methodology of
this audit.




                            3
                                           Audit of NRC’s Oversight of Agreement States’ Licensing Actions



III. FINDING

                  NRC uses a judgmental sampling method to rate the overall
                  technical quality of an Agreement State’s licensing actions.
                  However, while NRC should only apply the conclusions drawn from
                  the sample to those license actions selected, NRC projects the
                  results to the overall licensing program. To project sample results
                  to the entire program and to measure the confidence in those
                  results requires statistical sampling. Because NRC uses
                  judgmental sampling, NRC cannot measure the level of confidence
                  in conclusions about the adequacy of an Agreement State’s
                  licensing actions to protect public health and safety. Furthermore,
                  without confidence in ratings about a State’s licensing program,
                  NRC cannot attest to the confidence level in overall program ratings
                  on the adequacy of an Agreement State program.

                  Sampling Methodology

                  To have confidence in the accuracy of ratings assigned to Indicator
                  4, and to assure conclusions projected to the universe (the overall
                  program) based on the sample analysis requires random sampling1.
                  Among the factors identified in Statistics for Management2 (Mandel
                  and Laessig) that must be considered in order to determine the
                  appropriate sample size to select when projecting results are—

                           ¾          the size of the universe,
                           ¾          the desired confidence in the results, and
                           ¾          the method of selecting the sample.

                  Mandel and Laessig state that the sampling methodology and
                  sample size must conform with management’s desire for
                  reasonable reliability of the results and confidence in using them.

                  Conclusions About Licensing Actions are Based on
                  Judgmental Sample

                  NRC reviews of Agreement State licensing actions yield
                  conclusions for which NRC has no measure of confidence. This is
                  because the method used to select a “representative cross-
                  section”3 of licensing actions is not statistically sound. Specifically,


1
  Random sampling is a method of selecting a part of the universe by reliance on the law of probability. The
purpose of random sampling is to provide representative data for drawing conclusions about the
characteristics of the entire universe from which they are selected (Mandel and Laessig, p. 174).
2
  Dr. B.J. Mandel and Dr. Robert E. Laessig, Statistics for Management, Dangary Publishing Company,
Baltimore, 1996.
3
  Management Directive and Handbook 5.6, Integrated Materials Performance Evaluation Program (IMPEP)
                                                     4
                                           Audit of NRC’s Oversight of Agreement States’ Licensing Actions



                  staff selects and reviews a judgmental sample4 of licensing actions
                  upon which they project conclusions about the State’s overall
                  licensing actions. IMPEP procedures state that—

                           ¾          depending on the size of the Agreement State
                                      program, the principal reviewer should select
                                      between 10 to 25 licensing actions for review;
                           ¾          these actions should represent a cross-section of
                                      the Agreement State's workload, including as many
                                      different reviewers and license categories as
                                      practical; and
                           ¾          whenever possible, the selected licenses should
                                      include—

                                      -      at least two new licenses,
                                      -      at least three major program amendments
                                             (including one denial),
                                      -      at least three license renewals, and
                                      -      at least one license termination or bankruptcy.

                  IMPEP reviewers use the results from the judgmental sample of
                  licensing actions to draw a general conclusion about the overall
                  technical quality of a State’s licensing actions. By projecting the
                  results of the judgmental sample to the State’s overall licensing
                  actions, NRC draws a general conclusion when the data refer only
                  to a particular situation.5

                  Specifically, the confidence in projected results based on analysis
                  of a judgmental sample cannot be measured. The main
                  disadvantage of a sample which does not rely on random selection
                  is that when projecting results to the universe there is no way of
                  measuring reliability because “. . . there are no principles which
                  provide a sound basis for computing the sampling error of non-
                  random samples.”6 Additionally, the results of judgmental samples
                  are difficult to defend on grounds of objectivity. Therefore, results
                  based on the judgmental sample of 10 to 25 licensing actions
                  pertain only to the particular licensing actions selected and the
                  results cannot be relied upon to represent the overall performance
                  of the Agreement State’s licensing actions.




4
  Samples selected not in compliance with the principle of chance usually are called judgment samples. In
this type of sample, the sampler’s best judgment, based on past experience, is used in selecting those items
for the sample which are believed to give a representative picture of the universe (Mandel and Laessig, pp.
202-203).
5
  Mandel and Laessig, p. 10.
6
  Mandel and Laessig, pp. 202 – 203.
                                                     5
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



      Use of “Smart” Samples

STP staff asserts that using a random statistical sampling
methodology could result in issues being overlooked. According to
STP staff, IMPEP reviews are performance-based and use a “smart
sample” and a team approach that takes advantage of everyone’s
expertise. The IMPEP teams look at cases that are high risk
instead of looking at minor cases such as a licensee requesting the
addition of a minor isotope. According to STP staff, “Smart
sampling permits the IMPEP team to maximize its focus on
licensing actions that approve the use of significant quantities,
types and uses of licensed materials that, if not properly licensed
and used, could place users and members of the public at greater
risk.” Additionally, the reviewers’ judgment about which licensing
actions to select is influenced by interactions between the State
and the Regional State Agreements Officers (RSAO) on technical
and policy licensing issues. Reviewers’ judgment is also influenced
by periodic meetings held between the RSAO and Agreement State
program management.

The IMPEP program does provide some level of accountability for
Agreement State programs by periodically conducting on-site spot
checks. However, the confidence in NRC’s conclusions about the
performance in carrying out licensing actions cannot be measured.
This is because they do not include random sampling techniques,
and the prescribed sampling methodology lacks a sound basis.

      Sample Sizes

IMPEP reviewers select licensing cases on the basis of older
procedures already in place and on the institutional experience of
its own license reviewers. According to an STP staff member, NRC
has not documented the rationale for the sample sizes selected.
For instance, NRC has not considered one of the distinct factors
identified by Mandel and Laessig: the size of the universe needed
to determine a valid sample size.

In fact, the number of licensing actions selected for review is not
relative to the State’s volume of licensing actions (i.e., the
universe). This is because NRC does not know how many
licensing actions each Agreement State processes. Specifically,
the range of 10 to 25 licensing actions selected for review is the
same for all Agreement States. For example, when reviewing
licensing actions for the Agreement States California and Rhode
Island, reviewers would select 10 to 25 actions for each. However,
California is responsible for overseeing 2,077 licenses and Rhode



                            6
                                        Audit of NRC’s Oversight of Agreement States’ Licensing Actions



                Island is responsible for overseeing only 58 licenses.7 The number
                of licensing actions processed in California presumably would be
                far greater than the number of licensing actions processed in
                Rhode Island. According to STP staff, NRC does not have
                information on the number of licensing actions processed by each
                Agreement State. An STP staff member said this information is
                lacking because, under the agreements with NRC, the Agreement
                States have full authority to run their own program.

                Furthermore, NRC limits the sample of licensing actions reviewed
                to 10 to 25 because of resource constraints. According to an STP
                staff member, too many resources would be needed to review more
                than the 10 to 25 licensing actions prescribed by the procedure.
                However, NRC cannot determine the resources needed until it
                knows how many licensing actions must be reviewed in each State
                to produce reliable conclusions about the universe of licensing
                actions. The STP staff member noted that reviewers do have the
                latitude to ask management for more resources to complete the
                review if they see a problem.

                Conclusions About Technical Quality of Licensing Actions
                Lack Confidence

                Because IMPEP reviews of the technical quality of licensing actions
                (Indicator 4) result in conclusions for which NRC cannot measure
                the confidence level—

                     ¾              NRC cannot reasonably assure that Agreement
                                    State licensing actions are satisfactory to protect
                                    public health and safety, and
                     ¾              Confidence in the Board’s conclusions about the
                                    overall adequacy and compatibility of an Agreement
                                    State program may also be lacking.

                According to IMPEP guidance,8 if a State program is satisfactory
                but needs improvement for just one or two performance indicators
                the Board may decide to increase oversight of the Agreement State
                program. Therefore, while NRC feels confident in their ratings,
                NRC lacks a basis for measuring confidence in IMPEP ratings for
                Indicator 4. Without a measure of confidence in ratings for
                Indicator 4, the confidence in the overall rating of a State’s
                adequacy and compatibility may also be lacking. As a result, the
                State may not receive the additional oversight warranted.


7
  Number of licenses in this case includes only licenses overseen by the Agreement State program and
excludes licenses for which NRC retains regulatory oversight.
8
  Management Directive an Handbook 5.6, Integrated Materials Performance Evaluation Program (IMPEP)
                                                  7
                          Audit of NRC’s Oversight of Agreement States’ Licensing Actions




       CONCLUSION

       NRC draws general conclusions about the adequacy of Agreement
       State licensing actions based on a judgmental sampling
       methodology. By using a judgmental sample, NRC cannot
       measure the level of confidence in ratings it assigns to Indicator 4.
       Without a level of confidence in the ratings assigned to Indicator 4,
       NRC cannot be assured that the technical quality of Agreement
       State licensing actions are satisfactory to protect public health and
       safety.


IV. RECOMMENDATIONS

       OIG recommends that the Executive Director for Operations—

       1)    Seek and apply guidance from NRC’s statistician on
             sampling methodology and criteria for assigning ratings for
             Common Performance Indicator 4, Technical Quality of
             Licensing Actions; and

       2)    Document the rationale and basis for the sampling
             methodology for selecting licensing actions contained in
             IMPEP guidance for evaluating Common Performance
             Indicator 4, Technical Quality of Licensing Actions.




                                   8
                           Audit of NRC’s Oversight of Agreement States’ Licensing Actions




V. AGENCY COMMENTS

       A draft of the report was shared with NRC management on January
       31, 2006. The draft report included a recommendation to apply
       statistical random sampling techniques in conducting reviews of the
       Common Performance Indicator 4, Technical Quality of Licensing
       Actions. The February 13, 2006, response from the Deputy
       Executive Director for Materials, Research, State and Compliance
       Programs stated that, “. . . although we understand the OIG’s
       conclusions on the NRC oversight of Agreement States’ licensing
       actions as described in the OIG report, the staff continues to
       disagree with the use of random sampling for this application.”

       OIG maintains that applying sound statistical methods in selecting
       licensing actions for evaluating Common Performance Indicator 4
       will add value to the existing program. However, OIG recognizes
       that other sampling approaches are available. Therefore, OIG
       revised the initial report recommendations to allow for flexibility in
       establishing and documenting the basis for selecting licensing
       actions to review.

       The Agency’s response and specific comments are included as
       Attachment C; and, OIG’s analysis and response is included as
       Attachment D.




                                    9
       Audit of NRC’s Oversight of Agreement States’ Licensing Actions




[Page intentionally left blank.]




                10
                         Audit of NRC’s Oversight of Agreement States’ Licensing Actions


                                                                           Appendix A
SCOPE AND METHODOLOGY

       As part of the OIG’s Audit of the Development of the National
       Source Tracking System, OIG examined licensing aspects of
       NRC’s Integrated Materials Performance Evaluation Program, the
       agency’s mechanism for overseeing Agreement State programs.
       To conduct this audit, we reviewed Section 274 of the Atomic
       Energy Act, as amended, and the following agency documents:

             ¾       Title 10, Code of Federal Regulations (10 CFR),
                     Part 1, Statement of Organization and General
                     Information;
             ¾       10 CFR Part 150, Exemptions and Continued
                     Regulatory Authority in Agreement States and in
                     Offshore Waters Under Section 274;
             ¾       Management Directive (MD) 5.6, Integrated
                     Materials Performance Evaluation Program
                     (IMPEP), and Handbook;
             ¾       MD 5.9, Adequacy and Compatibility of Agreement
                     State Programs;
             ¾       STP procedures related to IMPEP, specifically those
                     related to evaluating Common Performance
                     Indicator 4, Technical Quality of Licensing Actions;
             ¾       Report of the Working Group on IMPEP Lessons
                     Learned;
             ¾       IMPEP Good Practices; and
             ¾       Other historical STP documents.

       We also reviewed NRC’s methodology for evaluating the adequacy
       of a sample of Agreement State licensing actions and projecting
       results based on the sample. We compared NRC’s sampling
       methodology against sampling methodology described in the
       textbook, Statistics for Management. Additionally, we discussed
       the NRC’s oversight of the Agreement State Program with an STP
       manager and staff, and discussed the current IMPEP process and
       its evolution with an STP staffer.

       This audit was conducted in accordance with generally accepted
       Government audit standards and included a review of management
       controls related to this audit. This audit was conducted from
       February 2005 to November 2005.

       Major contributors to this report are Anthony Lipuma, Team Leader;
       Sherri Miotla, Audit Manager; Michael Cash, Technical Advisor;
       Deb Lipkey, Sr. Management Analyst; and R. K. Wild, Sr.
       Management Analyst.

                                  11
Audit of NRC’s Oversight of Agreement States’ Licensing Actions




[Page intentionally left blank.]




         12
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions


                                                                     Appendix B
                  Policy Statement on
  Adequacy and Compatibility of Agreement State Programs


NRC’s policy on compatibility is as follows—

”An Agreement State radiation control program is compatible with
the Commission's regulatory program when the State program does
not create conflicts, duplications, gaps, or other conditions that
jeopardize an orderly pattern in the regulation of agreement
material (source, byproduct, and small quantities of special nuclear
material as identified by Section 274b. of the Atomic Energy Act, as
amended) on a nationwide basis. Compatibility focuses primarily
on the potential effects of State action or inaction either on the
regulation of agreement material on a nationwide basis or on other
jurisdictions. The concept of compatibility does not directly address
matters of health and safety within a particular Agreement State;
such matters are addressed directly under adequacy. However,
many program elements for compatibility may affect public health
and safety; therefore, they also may be considered program
elements for adequacy. Further, basic radiation protection
standards and program elements with transboundary implications,
although important for health and safety within the State, should be
uniform nationwide for compatibility purposes.”

NRC’s policy on adequacy is as follows—

"An Agreement State radiation control program is adequate to
protect public health and safety if administration of the program
provides reasonable assurance of protection of public health and
safety in regulating the use of agreement material. The level of
protection afforded by the program elements of NRC's materials
regulatory program is presumed to be that which is adequate to
provide a reasonable assurance of protection of public health and
safety. A subset of one of the five elements identified to help
provide such reasonable assurance is legally binding requirements
addressing protection of public health and safety within the State."




                            13
       Audit of NRC’s Oversight of Agreement States’ Licensing Actions




[Page intentionally left blank.]




                14
                  Audit of NRC’s Oversight of Agreement States’ Licensing Actions


                                                                    Appendix C
AGENCY FORMAL COMMENTS




                           15
Audit of NRC’s Oversight of Agreement States’ Licensing Actions




         16
Audit of NRC’s Oversight of Agreement States’ Licensing Actions




         17
Audit of NRC’s Oversight of Agreement States’ Licensing Actions




         18
                            Audit of NRC’s Oversight of Agreement States’ Licensing Actions


                                                                              Appendix D
DETAILED ANALYSIS OF COMMENTS

        Where the Agency commented that OIG is incorrect, OIG disagrees
        and has reaffirmed the accuracy of its statements. The remainder
        of the Agency’s comments provides their opposing stance on the
        appropriateness and the applicability of the use of statistical
        sampling in reviewing the technical quality of licensing actions in an
        Agreement State.

        OIG’s central message in the report is that, if the Agency desires to
        have a level of confidence in projecting results of an evaluation
        based on a sample of licensing actions (i.e., assigning a rating),
        statistical sampling methods must be used. As mentioned in the
        report, judgmental sampling provides no way of measuring the
        reliability of whether the results from the sample give a
        representative picture of the whole (the whole, in this case, would
        be the overall technical quality of all licensing actions processed in
        an Agreement State). While other sampling methodologies exist,
        statistical sampling provides a reliable and conservative approach
        appropriate for a regulatory agency with a mission to protect the
        public health and safety. Therefore, to allow for flexibility in
        establishing and documenting the basis for selecting licensing
        actions to review, OIG revised the report recommendations.

        A point by point analysis of the Agency’s comments follows below.

        NRC Specific Comment 1

        1. Page 4, first paragraph. The first sentence is inaccurate and
        should be changed to read as follows:

               Among the indicators considered during an IMPEP review,
               Common Performance indicator 4, Technical Quality of
               Licensing Actions, is focused on evaluating the technical
               quality of Agreement States’ licensing actions in connection
               with the other performance indicators to determine an overall
               program performance.


        OIG Response
          OIG disagrees that the sentence is inaccurate. However, to
          clarify, OIG revised the report to state, “Only one performance
          indicator, among the many considered during an IMPEP
        Nreview, specifically relates to evaluating the technical quality of
        RAgreement States' licensing actions. ”
        C
                                     19
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



Specific Comment 2

2. Page 4, Results. The audit report concludes that the
methodology used by NRC to select a sample of licensing actions
to review during IMPEP reviews is not sound. The report goes on to
assert that NRC cannot qualify the level of confidence it has in
Agreement State licensing actions because of the use of a
judgmental sample rather than a scientific random sample. The
staff believes that the net result claimed in the Office of the
Inspector General (OIG) report is incorrect, i.e., that NRC may not
be assured that the technical quality of Agreement State licensing
actions are satisfactory to protect public health and safety and that
NRC cannot attest to the confidence level in the overall program
ratings on adequacy. The use of a scientific random sample would
be appropriate for probability sampling of a homogeneous
population of items and where a statistical confidence level is
required as in American Society for Testing and Materials (ASTM)
E 105 - 58, “Standard Recommended Practice for Probability
Sampling of Materials.” The staff did not design IMPEP to include
probability sampling and a calculated statistical confidence level,
and to do so would be inappropriate for the evaluation of an
Agreement State or NRC Regional program. Probabilistic sampling
and statistical confidence levels rely on the use a data range of at
least 30 to 40 data points for analysis. IMPEP audits do not
typically contain enough data in any one area to yield meaningful
statistical interpretations.

The assumption that the term “representative, cross-section”
reference in both Management Directive (MD) 5.6 and the staff
procedures refers to a statistical random sample is incorrect. The
staff intended to perform what OIG refers to as a judgmental
sample to check licensing actions as a significant part of the IMPEP
reviewers’ and team leader’s judgement on the adequacy of the
Agreement State licensing program, but not intended to be used as
the only evaluation input. The MD intent and procedure requirement
is to select a representative sample of the population (licensing
actions) in order to support a reasonable or adequate assurance of
appropriate regulatory safety in these activities. The use of a
scientific random sample in this case is not required, was not
intended, and would, in some cases, not be risk-informed or
representative of the population being sampled. The staff approach
to sampling of licensing actions conforms with the agency
practices, and with the requirements of the MD and procedures.

The staff uses a judgmental approach to categorizing activities to
be reviewed into subgroups of similar actions. A sample lot of
actions is then randomly selected and reviewed by staff to assess

                            20
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



the performance of Agreement State personnel in adequately
accomplishing these actions within appropriate processes.

OIG’s Response

 OIG stands by the statement that the methodology used by
 NRC to select a sample of licensing actions to review during
 IMPEP reviews is not sound. NRC has neither provided OIG
 with a documented basis nor has it described a sound basis
 that could provide assurance that conclusions drawn (i.e.,
 ratings) about the State’s overall licensing actions (i.e., ratings
 for Common Performance Indicator 4) accurately reflect the
 overall performance of the State’s licensing actions and that
 the results are verifiable. Without a documented, sound basis
 for selecting a “representative, cross-section” of licensing
 actions, NRC cannot have assurance that ratings for
 performance indicator 4, “Technical Quality of Licensing
 Actions,” are valid.

 With regard to the Agency’s statement that IMPEP was not
 designed to include probability sampling, NRC did design the
 IMPEP Common Performance Indicator 4 to yield a broad
 determination of a State’s performance in processing licensing
 actions. However, the attributes of the program (i.e., the use
 of judgmental sampling) do not allow for such broad
 determination. In other words, without using random sampling
 methodology, conclusions drawn about the technical quality of
 a State’s licensing actions (i.e., a “satisfactory” rating) can only
 apply to the specific licenses reviewed and cannot be
 projected to the overall licensing actions performed by the
 State. To make such broad determinations without reviewing
 100 percent of licensing actions or using a random sampling
 methodology is subjective and arbitrary.

 OIG disagrees with the Agency’s assertions that it would be
 inappropriate for the evaluation of an Agreement State or NRC
 Regional Program to include probability sampling and a
 calculated statistical confidence level and that IMPEP audits
 do not have enough data points in any one area. The Agency
 has not consulted with a statistician to assess how or whether
 statistical sampling methodology could be applied to add value
 to the process.

 The Agency staff also asserts that they intended to perform
 “judgmental samples” to support a “reasonable or adequate”
 assurance of regulatory safety and that scientific random
 sampling is not required. While OIG understands that staff
 intended to perform judgmental sampling, as mentioned in the
 report, this technique provides no way of measuring its
                           21
                  Audit of NRC’s Oversight of Agreement States’ Licensing Actions




reliability. In judgmental samples, “. . . the sampler’s best
judgment based on past experience is used in selecting those
items for the sample which are believed to give a
representative picture of the universe. In some instances,
where good judgment is used, or by good luck, such a sample
may give a fairly accurate representation of the universe. The
main disadvantage of a sample which does not rely on random
selection is that when the estimate is made there is no way of
measuring its reliability, since there are no principles which
provide a sound basis for computing the sampling error of non-
random samples” (Mandel and Laessig, p. 202).

While OIG acknowledges that scientific random sampling is
not specifically required in NRC’s IMPEP guidance, assigning
a rating (e.g., satisfactory, unsatisfactory) to the Common
Performance Indicator 4 during an IMPEP review based on a
sample necessitates consideration for assessing the level of
assurance in the rating. In other words, given the current
methodology, what assurance can NRC give the public that a
rating of “satisfactory” is a true representation of the universe?

Finally, with regard to the term “representative, cross-section,”
no language is included in the report that refers to the term as
a statistical random sample. Nonetheless, the term is used in
MD 5.6, Integrated Materials Performance Evaluation Program
(IMPEP), and Handbook and other IMPEP guidance without a
specific definition. Consequently, it is open to interpretation.
Because judgmental samples cannot be relied upon to give a
“representative” picture of the universe (Mandel and Laessig,
p. 202), it is easy to see how one might interpret the term to
mean a statistical random sample. Additionally, the term
“sampling” is often used to describe the selection of a part of a
whole field for the purpose of drawing conclusion about the
entire universe from a study of a part (the sample). This
description is consistent with what the agency’s guidance
prescribes. The basic requirement of sampling is that a
sample be “representative” or serve as an off-spring from the
parent or the entire universe from which it is selected. The
best way of meeting this requirement is to use a random
sample that also is large enough to provide a reasonably
accurate picture of the universe (Mandel and Laessig, p. 174).




                           22
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



NRC Specific Comment 3

3. Page 5, Sampling Methodology. The staff recommends that this
section be revised, since it was not the intent of the IMPEP process
to conduct a statistical random sample of licensing actions,
generate a statistically calculated confidence level, and project the
conclusions on overall program performance. A representative
sample is intended to be selected, based on the staff’s knowledge
and judgement of the specific organization’s licensing actions, the
risk-significance of the licensing actions and previous experience.
This approach is consistent with agency practice for licensing
application reviews, integrated safety analyses reviews and
inspections, such as for quality assurance, and material control and
accounting. Most authoritative statistical references, including
Juran’s Quality Control Handbook, Shewhart’s Economic Control of
quality of manufactured Product, and B. J. Mandel’s Statistics for
Management, emphasize that whether a sample is to be used for
process control, or a calculated confidence statement, or lot
acceptance, or technical or management evaluation or judgement,
the sample must be representative and based on knowledge of the
population and/or processes that produce them. Many of the
industry consensus standards used by the nuclear industry do not
require scientific random samples, much less a calculated
confidence limit. The American Society of Mechanical Engineers
(ASME) Boiler and Pressure Vessel Code sections generally
require sampled population. This code is used for many nuclear
and other industry safety-related and critical components and
systems. ASME Code requirements for In-Service inspection (ISI)
specify one of every five welds be inspected. This is basically a
process control sample, based on earlier qualification of the
process. ASTM standards and specifications in many cases do not
require a random sample. Many ASTM standards specifically
require a representative sample, e.g., ASTM C-776, Section 5.




                            23
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



OIG’s Response

 OIG acknowledges that the staff did not intend to conduct a
 statistical sample. However, Common Performance Indicator
 4 is designed to yield a broad determination of a State’s
 performance in processing licensing actions, yet the attributes
 of the program (i.e., the use of judgmental sampling) do not
 allow for such broad determination. In other words, without
 using random sampling methodology, conclusions drawn
 about the overall performance on the technical quality of a
 State’s licensing actions (i.e., a “satisfactory” rating) can only
 apply to the specific licenses reviewed and cannot be
 projected to the overall licensing actions performed by the
 State.

 As the authoritative statistical references mentioned above
 state, the sample must be representative and based on
 knowledge of the population and/or processes that produce
 them. Similarly, as stated in OIG’s response to comment 1
 above, the basic requirement of sampling is that a sample be
 “representative” or serve as an off-spring from the parent or
 the entire universe from which it is selected. The best way of
 meeting this requirement is to use a random sample that also
 is large enough to provide a reasonably accurate picture of the
 universe (Mandel and Laessig, p. 174). Without some
 consideration of statistical sampling, the agency has no way of
 assuring that the judgmental sample provides a reasonably
 accurate picture of the universe (i.e., is truly “representative”).




                            24
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



NRC Specific Comment 4

4. Pages 5 and 8, Conclusions About Licensing Actions Based on
Judgement Samples. The staff recommends that this section be
revised to reflect the full context of the OIG/Office of State and
Tribal Programs discussions and practices and offers the following
text for your consideration:

      The IMPEP team, in its evaluation of the overall Agreement
      State’s performance, seeks to best understand the root
      cause of why a weakness is identified in a particular
      performance indicator, whether that indicator is licensing
      actions, performance of inspections, or any other aspect of
      the Agreement State’s radiation control program. Thus, it
      may be the case that a weakness discovered in a licensing
      action is attributable to insufficient training or shortage of
      personnel in the department or incompatible regulations.
      The staff believes that these linkages are necessary and
      would not be revealed by an approach limited to a scientific
      random sample.

The NRC staff believes the value added from the integration and
interconnection of the five common performance indicators on
which the overall Agreement State performance is based is an
efficient and effective way to conduct the Agreement State
evaluations. The considerable interaction with the various IMPEP
team members (including an Agreement State member) draws on
all sources of knowledge available to staff in order to make the best
and most accurate assessment of the performance of an
Agreement State’s program. The emphasis is on a holistic and
integrated performance approach to program evaluation to avoid a
segmented approach of considering the common performance
elements one by one.

As a practical matter, what the team members seek to accomplish
under the leadership of an experienced IMPEP team leader, is to
bring to bear focus on known or potential weaknesses in the
Agreement State program under review. This approach is followed
in order to be as maximumly effective as possible in the selection of
licensing actions for in-depth review by the team (smart sampling)
as one aspect of examination of the questionnaire, review of
applicable statues and regulations, analysis of quantitative
information of licensing data, review of procedures, and staff and
management interviews. Smart sampling permits the IMPEP team
to maximize its focus on licensing actions that approve the use of
significant quantities, types and uses of licensed materials that, if
not properly licensed and used, could place users and members of
the public at greater risk. Random sampling of licensing actions will
                            25
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



likely result in the identification of a significant number of actions
that only authorize the use of licensing materials with low risk since
they represent the largest number of licensees.

OIG’s Response

 As this report states, “OIG examined licensing aspects of
 NRC’s IMPEP program. Specifically, this report focuses on
 NRC’s oversight of Agreement State licensing actions.” OIG
 acknowledges that Indicator 4 is one of many considered
 during an IMPEP review. Additionally, OIG understands that if
 the IMPEP team identifies an issue under Indicator 4, the
 cause for the issue may be exposed while reviewing another
 indicator. However, IMPEP teams follow procedures specific
 to each performance indicator. The message in the report
 speaks specifically to the procedures followed by IMPEP
 teams to review Indicator 4. That is, whether or not the
 technical quality of licensing actions completed by the State
 are “Satisfactory.”



NRC Specific Comment 5

5. Page 8, Sample Size. This section raises the size of the sample
of licensing actions reviewed in the IMPEP process. The OIG
report notes that the sample size may range from 10-25 typically
and does not account for the number of licensees from large States
such as California or Texas to small States such as New
Hampshire or Rhode Island. The staff believes that the OIG report
failed to properly credit the construction of the sample to emphasis
a spectrum of different types of licensees depending on the
activities in the State. The staff uses a judgmental approach to
categorize similar actions into subgroups. The actions to be
reviewed are then selected by staff on a somewhat random basis
for further evaluation. Through the use of high knowledgeable
personnel, the staff believes that it is able to target possible
weakness in the Agreement State’s licensing program, which might
otherwise be under-represented by using a random sampling
approach. The staff’s selection is based on a risk-informed and
performance-based evaluation in areas of potential weakness.




                            26
                   Audit of NRC’s Oversight of Agreement States’ Licensing Actions



OIG’s Response

 The description contained in the report of how NRC staffs
 construct the sample is taken from the State and Tribal
 Programs’ Procedure SA-104, "Reviewing Common
 Performance Indicator #4, Technical Quality of Licensing
 Actions". Additionally, OIG believes that by using sound
 statistical methodology to construct the sample, NRC can
 achieve a risk-informed sample through stratifying the sample.


NRC Specific Comment 6
6. Pages 9 and 10, Confidence in Conclusions About Technical
Quality of Licensing Actions Lacking and CONCLUSIONS. As
noted above in items 1 through 5, the staff disagrees with OIG’s
conclusions on the IMPEP process.


OIG’s Response

 See response to Specific Comments 1 through 5 above.


NRC Specific Comment 7
7. Page 10, Recommendations. Based upon the comments above,
the staff disagrees with these recommendations and suggests that
both recommendations be replaced with the following revised
recommendation:

Review and document the rationale and basis for selection of a
representative, cross-section of health and safety significant
licensing actions in IMPEP reviewer guidance in support of the
smart sampling conducted by the knowledgeable IMPEP team.


OIG’s Response
 OIG intends for this report to add value to IMPEP by
 recommending that NRC consult with a statistician about
 constructing a sample that will provide a level of assurance in
 ratings IMPEP reviewers assign to Common Performance
 Indicator 4. To allow for flexibility in establishing and
 documenting a sound basis for selecting licensing actions to
 review, OIG has revised the recommendations to require
 consultation with the Agency’s statistician rather than
 prescribing the use of statistical random sample.


                            27
